U.S. AGENCY     FOR

INTERN A T IO N A L

 D EVELOPMENT

                                                                                             October 7, 1998

           MEMORANDUM FOR Director,                          Mable

           From:          Acting             Thomas B. Anklewich


           Subject:	      Audit of the Quality of Results Reported in the Bureau for Humanitarian
                          Response’s Office of American Schools and Hospitals Abroad Results Review and
                          Resource Request (R4) Report Prepared in 1997 (Report No. 9-000-99-002-P)


           This memorandum is our report on the subject audit. In preparing this report, we considered your
           written comments to our draft report and included them as Appendix II.

           The audit objective was to answer the question: Did the Bureau for Humanitarian Response’s
           Office of American Schools and Hospitals Abroad              report results data in its R4 prepared
           in 1997, which were objectively verifiable, supported, accurate, complete and validated? The R4
           reported 1996 results for two indicators. One result was not supported and one was not accurate.
           We did not find any cases where the indicators were not objective. We also did not find any
           cases where the results were not complete or not validated. The report contains one
           recommendation for action by your office.

           In responding to the draft report,           management concurred with the recommendation.
           Management stated that it had modified the method of gathering, analyzing, and presenting
           performance data for the R4 prepared in 1998. In addition,       noted that it has taken several
           steps to ensure that results reported in future    would be objectively verifiable, supported,
           accurate, complete and validated.

           Based on management’s response and acceptance of the recommended actions, a management
           decision has been made.        Management Bureau’s Office of Management Planning and
           Innovation is responsible for deciding when final management action related to the
           recommendation has occurred.

           I appreciate the cooperation and assistance that you and your staff provided to the auditors during
           the audit.

           Background

           Passage of the Government Performance and Results Act of 1993 (Results Act), among other
           things, was intended to improve the effectiveness of federal programs and public accountability
by promoting a new focus on results. The General Accounting Office (GAO) noted that key
steps in building a successful results-oriented organization include collecting and using
performance information in the decision making process. Congress also recognized, in the
Results Act, that agency managers need performance information to facilitate decision making
leading to programs that meet intended goals. GAO also noted that successful implementation
of the Results Act is dependent on good information for decision-making purposes. In this
regard, we adopted five characteristics of what we believe is good management information:
objectively verifiable, supported, accurate, complete, and validated.

Since          was established in 1961, it has initiated numerous systems to report on program
results. However, none of these systems have been fully successful. Over the past several years,
the Office of Inspector General (OIG) has intermittently reported on weaknesses in
ability to measure and report reliable program performance information. Examples of these audit
reports include:’

                  A June 1995 report identified that           needed better direction and control
                  procedures to ensure that (1) objectively verifiable and measurable indicators are
                  established to measure program performance and (2) reliable and useful
                  performance data are reported and documented.

                  A March 1998 report on              fiscal year 1996 financial statements identified
                  that 29 of 38 (76 percent) quantified results reported in the program performance
                  section of the overview section were either incorrect, vague, or unsupported.

                  Another audit report issued in March 1998 identified that 10 of 11 overseas
                  missions reviewed either had not developed or finalized a formalized, ongoing
                  system of data collection and verification to report good performance data.

In light of the problems reported, and our continuing concern that these conditions may be
prevalent throughout            the OIG decided to perform a                  audit to establish a
baseline for future OIG audit work, to identify problems with current data reporting, and to
develop recommendations for improving data quality. This audit was not intended to assess the
quality of the performance indicators (subject of a future audit), but rather to determine if the
performance results reported in the    by operating units were objectively verifiable, supported,
accurate, complete, and validated. This audit of the Bureau for Humanitarian Response’s Office
of American Schools and Hospitals Abroad             is one of 18 audits being done on a
wide basis.

        first R4 was prepared prior to August 1997, and was approved by USAID/Washington
on October 3, 1997. The R4 includes two indicators for which performance results (or baseline


        The three audit reports referred to in this paragraph are Audit Report No.              (dated June 30,
      Audit Report No. 0-000-98-001-F (dated March 2,             and Audit Report No. 9-000-98-001-P (dated
March 26, 1998).

                                                         2

data) were reported for fiscal year 1996. As of September 30, 1997,         had obligated and
expended in support of its active programs a total of $64 million and $14 million, respectively.

Audit Objective

The Office of Inspector General, as part of a USAID-wide audit, performed the audit to answer
the following question:

       Did the Bureau for Humanitarian Response’s              of American Schools and
       Hospitals Abroad report results data in its Results Review and Resource Request
       prepared in 1997, which were objectively verifiable, supported, accurate, complete
       and validated?

Appendix I describes the audit’s scope and methodology.

Audit Findings

Did the Bureau for Humanitarian Response’s Offke of American Schools and Hospitals
Abroad report results data in its Results Review and Resource Request prepared in 1997,
which were objectively verifiable, supported, accurate, complete, and validated?

The Bureau for Humanitarian Response’s Office of American Schools and Hospitals Abroad did
not report results data which were supported or accurate. We did not find any cases where the
indicators were not objective. We also did not find any cases where the results were not
complete or not validated.

Federal laws and regulations require federal agencies to develop and implement internal
management control systems that (1) compare actual program results against those anticipated;
(2) provide for complete, reliable, and consistent information; (3) ensure that performance
information is clearly documented and that the documentation is readily available for
examination. For example, Office of Management and Budget (OMB) Bulletin             requires
agencies to have internal control systems to provide reasonable assurance that support for
reported performance results is properly recorded and accounted for to permit preparation of
reliable and complete performance information. (See Appendix III for a further discussion of
relevant laws and regulations as well as related       policies and procedures.)

For the purpose of this audit, our definitions are as follows:
0      Objectively Verifiable-The indicator is objective and the results have to be objectively
       verifiable. This means the indicator has no ambiguity about what is being measured.
       That is, there is general agreement over interpretation of the results. The indicator is both
       unidimensional and operationally precise. To be unidimensional means that it measures
       only one phenomenon at a time. Operational precision means no ambiguity over what
       kind of data would be collected for an indicator.

                                                 3

          Supported-This means that there was adequate documentation that supports the reported
          result. The support should be relevant, competent, and sufficient (as noted in the General
          Accounting Office’s Government Auditing Standards). For example, a memo of a
          telephone conversation, or “best guesses” would not be considered adequate
          documentation.

         Accurate-This includes (1) being within plus or minus one percent (1.0 percent) of the
         actual documented result; and (2) being consistent with what was to be measured under
         the indicator, e.g., if the indicator was to vaccinate children under 5 years of age then the
         result would not be consistent if the supporting documents show that the result was for
         children under 3 years of age. The result would also not be considered accurate if
         supporting documents show that the result was achieved prior to January 1996. (Note:
         Since we only reviewed results in the “performance data tables” for                the result
         would not be considered accurate if supporting documents showed the result was achieved
         in 1992.)
�
         Complete-This means the result includes all data against what was anticipated to be
         measured for the indicator and is for a full year. For example, if 20 regions were to be
         measured, but only 18 regions were measured, the result would not be complete. Also,
         if the results were only for a partial year (e.g., a six-month period), then the result would
         not be complete.

                          refers to the source of the data and the reliability of that source. We
         considered the source reliable if it came from an independent source such as the World
         Bank, United Nations (U.N.), independent evaluators, or an independent Demographic and
         Health Survey. If the data came from a contractor involved with the program or the host
         country government, then we considered the source reliable if            or an independent
         entity had performed an assessment of the data and/or system for generating the data and
         found the data or system to be reliable. (We fully recognize that under the Government
         Performance and Results Act (GPRA)            must validate from all its sources including
         the World Bank, U.N., etc., but, for the purposes of this audit, we are not reviewing
                   determination of validity of these independent sources. We plan to test
                   validation process for external information, like the U.N. at a later time in
         another audit.)

Our audit found problems with both results reported for performance indicators for which results
were reported in the R4 for fiscal year 1996 (prepared in 1997). A summary

         One indicator was “percent of assisted institutions that have performance monitoring plans
         and judge accomplishments resulting from grants.” The result reported for 1996 was 14


          To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not
supported and not accurate), we classified only one problem according to the following hierarchy: not objectively
verifiable, not supported, not accurate and not complete.

                                                            4
         percent (3 institutions with plans with a universe of institutions), which referred to the
         number of institutions with plans to the total number of institutions. Based on the
         indicator (as stated in the R4) and available documentation, the reported result was not
         supported since it could not be determined when one of the three plans was actually
         received. In addition, the reported result was not accurate since one plan was dated in
         January 1997, not 1996. Furthermore, the result reported was inconsistent with the
         indicator because the issue of . ..judge accomplishments resulting from grants” was not
         considered in determining the reported results.

         The other indicator was “percent of grantees that complete the agreed-upon actions on
         time.” The result reported was 15 percent (supporting documentation showed 17 percent)
         and we calculated 26 percent. We found that the reported amount is understated (not
         accurate) because          did not use the correct methodology to determine the total
         number of grantees and five grants were not counted as complete due to an oversight.
         In determining the total number of grants,          included several that were not due for
         completion during the period for which they were measuring. Therefore, the percentage
         was understated because the total number of grants included some that were not
         completed until the following fiscal year or later.

        officials said that in 1996 their office was going to be phased out and then in
         management decided to keep funding                 Originally, the R4 prepared in
reporting 1996 results was a pilot R4 and was not to be distributed. Subsequently, the R4 was
distributed, but according to        officials, they were unable to review the R4 before it was
distributed because of time constraints.          officials also stated that they were currently in
the process of further defining how they will define their indicators and measure results. For
instance, they are determining whether they want to use cumulative or yearly data for their
indicators. They also stated that they believe their new R4 has improved greatly because it is
easier to understand and the numbers are

Without reliable performance data, decision makers have little assurance whether an operating
unit met, exceeded or fell short in achieving their program objectives and related targets. In our
opinion, the problems with performance indicators and reporting on performance impair


          We recognize that                       bureaus are responsible for providing support to operating units to
develop effective performance monitoring systems to report on program results and for reviewing the R4 process. For
example,             policies and procedures (Automated Directives System [ADS] Sections 20 1      1 la and 203.3)
stipulate that the Bureau for Policy and Program Coordination should (1) ensure the adequacy of operating units’
strategic plans for measuring performance and documenting impact and (2) provide technical leadership in developing
         and operating unit performance monitoring and evaluation systems. These policies and procedures also
stipulate that the Bureau for Humanitarian Response should (1) provide oversight and support to its operating units in
developing their strategic plans for measuring program performance; (2) supporting its operating units in achieving
approved objectives, and reviewing and reporting annually those units’ performance in achieving their objectives; and
(3) managing the R4 submissions for operating units under its authority. The issue of                        support
and oversight will be addressed in another audit report which will be issued on completion of this                audit.
and         management’s ability to measure progress in achieving         program objectives
and to use performance information in budget-allocation decisions. The problems also impair
         ability to comply with laws and regulations.

       Recommendation No. 1: We recommend that the Bureau for Humanitarian
       Response’s Office of American Schools and Hospitals Abroad ensure that the
       performance data identified in its R4 prepared in 1998 are supported, accurate,
       complete, and validated; or fully disclose in the R4 any data limitations and their
       implications for assessing the measurement and achievement of performance targets
       for each performance indicator, and a time frame for resolving the problems.


Management Comments and Our Evaluation

In responding to the draft report,        management concurred with the recommendation.
Management stated that it had modified the method of gathering, analyzing, and presenting
performance data for the R4 prepared in 1998. In addition,       noted that it has taken several
steps to ensure that future    would be supportable, accurate, complete and valid.

Based on management’s response and acceptance of the recommended actions, a management
decision has been made.




                                               6

                                                                                    APPENDIX I
                                                                                     Page 1 of 2


                                        COPE AND

                                        THODOLOG




Scope

We audited the Bureau for Humanitarian Response’s Office of American Schools and Hospitals
Abroad’s internal management controls for ensuring that it reported objectively verifiable,
supported, accurate, complete, and validated performance results data in its Results Review and
Resource Request (R4) report. (See pages 3 and 4 of this report for definitions). We audited
only the results (including baseline data) reported for 1996 in the R4 prepared in 1997. The audit
was performed in accordance with generally accepted government auditing standards and was
conducted at                        from March 4, 1998 through June 8, 1998.

We limited our work on the quality of data to the results for only (1) the performance indicators
identified in the “performance data tables” in the R4 (prepared in       and (2) the actual results
for which such data was shown for 1996. Therefore, if no actual results for an indicator were
shown for 1996, we did not assess the validity and reliability for the results for that indicator.
We did not review results reported in the narrative portion of the R4.

We did not attempt to determine if the baseline data and the results reported for 1996 were
consistent and based on comparable data.

Methodology

This audit is one of 18 audits being done on a            basis. The Office of the Inspector
General’s Performance Audits Division in Washington, D.C. is the lead office. Operating units
to be audited were selected using a random sample based on assistance from statisticians from
the Department of Defense’s Office of Inspector General.

To accomplish the audit objective, we interviewed officials from the Bureau for Humanitarian
Response’s Office of American Schools and Hospitals Abroad. We also reviewed the documents
which supported the reported results. Where problems were found, we verified to the extent
practical, the causes of the problems. This included additional interviews with operating unit
personnel.

To avoid duplicating the problems related to the reported results (e.g., a reported result could be
both not supported and not accurate), we classified indicator results as having only one problem
                                                                                   APPENDIX I
                                                                                    Page 2 of 2

according to the following hierarchy: not objectively verifiable, not supported, not accurate and
not complete. We did, however, classify results as not validated (if applicable) in addition to
another problem because we believe that the requirement for operating units to assess the quality
of data sources was a distinct function and potentially related to each of the type of problems
included in the hierarchy. We did not assess whether a result was validated if the result was not
objectively verifiable.

If the results reported for the indicators were found to be objectively verifiable, supported,
accurate, complete and validated: (a) 95 percent or more of the time, (b) 80 to 94 percent of the
time, or (c) less than 80 percent of the time, we would provide a positive, qualified, or negative
answer to the audit question, respectively.
                                                                                                APPENDIX II

                                                                                                Page 1 of 3





    US. AGENCY   FOR




                                                                                   21 September 1998



            TO:                        David Comer, Director

                                          Mable S. Mea

                           Management Comments for Draft Audit of         Reported in the

                           Bureau for Humanitarian Response’s Office of American Schools and

                                    Abroad Results Review and            Request (R4) Prepared

                           in 1997 (Report No. x-xXx-98-xXx-P)



            The above referenced draft report contained the following:

           Recommendation No. I: We recommend that the Bureau for Humanitarian
           Response ‘s          of American Schools and            Abroad         that the
           performance data identified in its R4 prepared in 1998 are supported, accurate,
           complete, and validated; or fully         in the R4 any data limitations and their
           implications for assessing the measurement and achievement of performance
           targets for each performance indicator, and a time frame for            the



                          Decision:

                         accepts the                     of the report.

           As was discussed on several different occasions            the IG staff, the most recent by
                      on 15 July 1998,                was just beginning to prepare our 1998
-          when this audit began. As a result of the questions asked by the             staff,
                     the method of gathering, analyzing, and presenting                        data for this
           iteration of our R4. Additionally,      data is cross referenced for easy verification to
           ensure that it is objectively verifiable, supported, accurate, complete and validated.
           The R4, with back-up documentation is available for the            review in the           office.



                                    320                      WASHINGTON , D.C.   20523




-
                                                                                 APPENDIX II
                                                                                 Page 2 of 3




One of the most important results of preparing a draft, pilot    in 1997 (the subject of this
audit) was the development and implementation of a plan to ensure that the data reported in
future American Schools and Hospital Abroad (ASKA) R4s would be supportable,-
complete, and valid. It was obvious to               that             monitoring systems
and procedures would have to be developed in partnership with its grantees in order to
implement       plan. It was     clear that because of limited human resources, additional
          assistance would be            to accomplish this. To     end,        obtained the
services of two strategic          and performance monitoring specialists through their
             contractor in February

In order to monitor the impact of its        and to assist both          and the grantees in
managing grants and accomplishing and reporting on planned results, the writing,
submitting, and use of Performance Measurement Plans                 by grantees was        a
requirement of all grants made after 1995. In order to assist             in complying with the
requirement for PMps, ASHA developed a plan, currently being implemented, to assist
grantees with this new PMP requirement. In May 1998, representatives of                 grantees
from both U.S. Organizations            and the             Overseas Institutions
participated in strategic planning and performance monitoring plan workshop sponsored by
        The workshop presented the background of                 strategic planning efforts and
the directives on performance monitoring,      well as, the Government Performance and
Results Act (GPRA). Following the discussions,               partners formed working groups
and reviewed             strategic    and made suggestions for                    and
refinements the plan. The working groups also developed suggestions for
Performance Monitoring Plan. A handbook,              Handbook on                         and
              Monitoring, was distributed and reviewed at the workshop.

As a follow up to the workshop,         is providing technical assistance to USOs and
to help the grantees refine and implement their           In addition, ASI-IA staff is
continuing to confer             and      to solicit their input for potential revision to
          strategic plan and performance measurement system. A follow up workshop on
Performance Measurement Plans was held on September 18, 1998. Another handbook,
           a Performance Measurement          was prepared and distributed at the follow
workshop.

In preparing our R4 in 1998, we reviewed the lessons learned from the 1997 pilot R4
exercise. A                reporting questionnaire was prepared and distributed to 92
relevant grantees. This instrument was used to collect data on the R4 indicators. The
was compared to previous reported results (quarterly reports) and first hand knowledge of
              obtained during field visits to various overseas sites, It should be noted that
field visits are limited by our       budget. A R4 database was developed to analyze
results data. All      reported in this year’s     is supported by documentation found in
1998      Documentation Notebook.
                                                                            APPENDIX II

                                                                            Page 3 of 3





   anticipation of our 1999 R4,           is providing           assistance to our grantees
   assist them in collecting and               relevant results data. Within the       of our
travel budget and human resources,               willbe condu&ng field visits that will
include           the reliability and validity of the data.

Therefore,              requests that             consider this                   as
resolved when the report is issued.
                                                                                  APPENDIX III
                                                                                     Page 1 of 3

                    Federal Laws and Regulations, and       Guidance

                       Relevant to Measuring Program Performance


There are numerous federal laws and regulations requiring    (and other federal agencies)
to develop and implement internal management controls to measure and report on program
performance. Discussed below are examples of those requirements, in addition to the
Government Performance and Results Act, as well as related     policies and procedures.

Laws and Regulations

The Chief Financial Officers Act of 1990 requires management internal controls which provide
for (1) complete, reliable, consistent, and timely information which is prepared on a uniform basis
and which is responsive to the financial information needs of agency management; and (2) the
systematic measurement of performance.

Standards for Internal Controls in the Federal Government issued by the U.S. General Accounting
Office in 1983 require systems of internal controls that ensure that all transactions and other
significant events are to be clearly documented, and that the documentation be readily available
for examination.

OMB Circular No. A-123 (dated June 21,            which is the executive branch’s implementing
policies for compliance with the Federal Managers’ Financial Integrity Act of 1982, requires
agencies to have management internal controls to ensure that (1) programs achieve their intended
results; and (2) reliable and timely information is obtained, maintained, reported and used for
decision making.

OMB Bulletin 93-06 (dated January 8, 1993) requires agencies to have internal control systems
to provide reasonable assurance that support for reported performance results are properly
recorded and accounted for to permit preparation of reliable and complete performance
information.

The Foreign Assistance Act (Section       as amended in 1968, requires          to develop and
implement a management system that provides for comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to        and to Congress that relates        resources, expenditures, and budget
projections to program objectives and results in order to assist in the evaluation of program
performance.
            . .
                  and Procedure

The most recent        system, known as the Automated Directives System for Managing for
Results (ADS 200 Series), for measuring and reporting on program performance was initiated in
October 1995. This new system requires (Section                that operating units establish
                                                                                    APPENDIX III
                                                                                       Page 2 of 3

performance monitoring systems to regularly collect and analyze data which will enable them to
track performance and objectively report on the progress in achieving strategic objectives and
intermediate results. The ADS also requires (Sections 203.5.5,          E203.5.5 and
operating units to:

    establish objective performance indicators (with related baseline data and targets) to measure
    progress in achieving program objectives;

    critically assess the performance data at regular intervals to ensure that reported performance
    data are of reasonable quality and accurately reflect performance; and

�   prepare an annual Results Review and Resource Request (R4) report which must include
    performance information on progress in achieving its program objectives for the immediate
    past fiscal year.

TIPS No. 6 “Selecting Performance Indicators,” which is supplemental guidance to the ADS,
defines objective as:

    “An objective indicator has no ambiguity about what is being measured. That is, there
    is general agreement over interpretation of the results. It is both unidimensional and
    operationally precise. To be unidimensional means that it measures only one phenomenon
    at a time. . . . Operational precision means no ambiguity over what kind of data would be
    collected for an indicator. For example, while number of                  export       is
    ambiguous, something like number of                    experiencing an annual increase in
    revenues of at least 5 percent is operationally precise.”

TIPS No. 7 “Preparing a Performance Monitoring Plan,” which is also supplemental guidance to
the ADS, stipulates that each performance indicator needs a detailed definition. The definition
should be detailed enough to ensure that different people at different times, given the task of
collecting data for a given indicator, would collect identical types of data. The definition should
be precise about all technical elements of the indicator statement. For example, the TIPS states:

     “As an illustration, consider the indicator number of        enterprises receiving loans
    from the private banking system. How are small enterprises defined -- all enterprises with
     20 or fewer employees, or 50 or        What types of institutions are considered part of
    the private banking sector -- credit unions, government-private sector joint-venture
    financial institutions?”

ADS Section E203.5.5 also requires operating units to (1) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and methods;
(2) collect results data for each performance indicator on a regular basis; (3) reassess data quality
as is necessary but at intervals of no greater than three years. These policies and procedures also
                                                                                    APPENDIX III
                                                                                       Page 3 of 3

state that if data for a performance indicator proves to be unavailable or too costly to collect, the
indicator may need to be changed.

In addition, ADS section           states that        will conduct a review of performance on
an annual basis which will include analyzing operating units performance and “shall focus on the
immediate past fiscal year”, but may also review performance for prior years.

         guidance issued in January 1997 for preparing the             stated that the goal of the
guidance was to generate          which ensure that                          management has the
information they need to make results-based resource allocations among operating units and
report on           achievements. The guidance also stated that the most effective       are those
that (1) assess performance over the life of objectives, with an emphasis on the past year, using
established indicators, baseline data and targets; and (2) state explicitly whether and how much
progress or results surpassed, met or fell short of expectations. The guidance stated that the
results should cover actual performance through fiscal year 1996.
